<html>
<title> - POLITICIZATION OF THE JUSTICE DEPARTMENT AND ALLEGATIONS OF SELECTIVE PROSECUTION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 POLITICIZATION OF THE JUSTICE DEPARTMENT AND ALLEGATIONS OF SELECTIVE 
                              PROSECUTION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   COMMERCIAL AND ADMINISTRATIVE LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 10, 2008

                               __________

                           Serial No. 110-191

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                     U.S. GOVERNMENT PRINTING OFFICE
43-356 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

           Subcommittee on Commercial and Administrative Law

                LINDA T. SANCHEZ, California, Chairwoman

JOHN CONYERS, Jr., Michigan          CHRIS CANNON, Utah
HANK JOHNSON, Georgia                JIM JORDAN, Ohio
ZOE LOFGREN, California              RIC KELLER, Florida
WILLIAM D. DELAHUNT, Massachusetts   TOM FEENEY, Florida
MELVIN L. WATT, North Carolina       TRENT FRANKS, Arizona
STEVE COHEN, Tennessee

                     Michone Johnson, Chief Counsel

                    Daniel Flores, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             JULY 10, 2008

                                                                   Page

                           OPENING STATEMENTS

The Honorable Linda T. Sanchez, a Representative in Congress from 
  the State of California, and Chairwoman, Subcommittee on 
  Commercial and Administrative Law..............................     1
The Honorable Chris Cannon, a Representative in Congress from the 
  State of Utah, and Ranking Member, Subcommittee on Commercial 
  and Administrative Law.........................................     3
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     5

                            INVITED WITNESS

Mr. Karl Rove, former White House Deputy Chief of Staff
  [Mr. Rove declined to appear at this hearing.]

                                APPENDIX
               Material Submitted for the Hearing Record

Ruling of the Chair, the Honorable Linda T. Sanchez, Chairwoman, 
  Subcommittee on Commercial and Administrative Law..............    10
Letter to Scott Pelley from Karl Rove, submitted by the Honorable 
  Chris Cannon...................................................    16
Letter to the Honorable John Conyers, Jr. from Robert D. Luskin, 
  submitted by the Honorable Chris Cannon........................    19
Letter to the Honorable John Conyers, Jr. from Robert D. Luskin, 
  submitted by the Honorable Chris Cannon........................    21
Letter to Robert D. Luskin from the Honorable John Conyers, Jr. 
  and the Honorable Linda T. Sanchez submitted by the Honorable 
  Linda T. Sanchez...............................................    23
Letter to Robert D. Luskin from the Honorable John Conyers, Jr. 
  and the Honorable Linda T. Sanchez submitted by the Honorable 
  Linda T. Sanchez...............................................    27
Letter to the Honorable John Conyers, Jr. from Robert D. Luskin, 
  submitted by the Honorable Linda T. Sanchez....................    29
Letter to Robert D. Luskin from the Honorable John Conyers, Jr. 
  and the Honorable Linda T. Sanchez submitted by the Honorable 
  Linda T. Sanchez...............................................    31
Letter to the Honorable John Conyers, Jr. from Robert D. Luskin, 
  submitted by the Honorable Linda T. Sanchez....................    33
Letter to Robert D. Luskin from the Honorable John Conyers, Jr. 
  and the Honorable Linda T. Sanchez submitted by the Honorable 
  Linda T. Sanchez...............................................    43
Letter to the Honorable Linda T. Sanchez and the Honorable Chris 
  Cannon from Bishop Joe Morris Doss, submitted by the Honorable 
  Linda T. Sanchez...............................................    50


 POLITICIZATION OF THE JUSTICE DEPARTMENT AND ALLEGATIONS OF SELECTIVE 
                              PROSECUTION

                              ----------                              


                        THURSDAY, JULY 10, 2008

              House of Representatives,    
                     Subcommittee on Commercial    
                            and Administrative Law,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:12 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable Linda 
T. Sanchez (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Conyers, Sanchez, Johnson, 
Lofgren, Delahunt, Watt, Cohen, and Cannon.
    Also present: Representatives Jackson Lee and Smith.
    Staff present: Eric Tamarkin, Majority Counsel; Daniel 
Flores, Minority Counsel; and Adam Russell, Majority 
Professional Staff Member.
    Ms. Sanchez. The Committee on the Judiciary, Subcommittee 
on Commercial and Administrative Law will now come to order.
    Before we begin the business of the Subcommittee, I want to 
make clear to our guests in the audience that any outbursts or 
comments or disruptions in the hearing from the public will 
result in removal from the Committee room.
    I just want to state that emphatically so everybody knows 
the rules going in.
    Without objection, the Chair will be authorized to declare 
a recess of the proceedings at any point.
    At this time, I would recognize myself for a short 
statement.
    According to letters we have received from his counsel, 
former presidential advisor, Karl Rove, has refused to appear 
today to answer questions in accordance with his obligations 
under the subpoena served on him based on claims that executive 
privilege confers upon him immunity from even appearing to 
testify.
    I am extremely disappointed and deeply concerned that Mr. 
Rove has chosen to forego this opportunity to give his account 
of the politicization of the U.S. Department of Justice, 
including allegations regarding the prosecution of Former 
Governor John Siegelman.
    I have given Mr. Rove's written claims careful 
consideration, and I rule that those claims are not legally 
valid, and that Mr. Rove is required, pursuant to the subpoena, 
to be here now and to answer questions.
    I will presently entertain a motion to sustain that ruling, 
the grounds for which are set forth in writing and have been 
distributed to all the Members of the Subcommittee.
    But first, I would like to summarize the grounds for the 
ruling as follows.
    First, the claims are not properly asserted. When a private 
party like Mr. Rove is subpoenaed by Congress and the executive 
branch objects on privilege grounds, the private party is 
obligated to respect the subpoena and the executive branch 
should go to court or otherwise pursue its privilege 
obligations.
    That is what happened in the AT&T case and what should have 
happened here.
    But we have not received a statement from the president or 
anyone at the White House directly asserting these privilege 
and immunity claims to the Subcommittee.
    Second, we are unaware of any proper legal basis for Mr. 
Rove's refusal even to appear today as required by the 
subpoena. The courts have made clear that no one, not even the 
president, is immune from compulsory process. That is what the 
Supreme Court ruled in U.S. v. Nixon and Clinton v. Jones.
    Neither Mr. Rove's lawyer nor the White House has cited a 
single court decision to support the immunity claim as to 
former White House officials.
    The proper course of action is for Mr. Rove to attend the 
hearing, pursuant to the subpoena, at which time any specific 
assertions of privilege can be considered on a question-by-
question basis.
    As the Supreme Court explained more than a century ago, no 
man in this country is so high that he is above the law, and 
all the officers of the Government, from the highest to the 
lowest, are creatures of the law and are bound to obey it.
    Third, the claims of absolute immunity directly contradict 
the conduct of this and past Administrations with respect to 
White House officials appearing before Congress.
    Only recently, current vice presidential chief of staff, 
David Addington, testified before the House Judiciary Committee 
pursuant to subpoena, and former White House press secretary, 
Scott McClellan, testified without even receiving a subpoena.
    In 2007, former White House officials Sara Taylor and Scott 
Jennings testified concerning the U.S. attorney firings before 
the Senate Judiciary Committee pursuant to a subpoena.
    Prior to this Administration, a CRS study shows that both 
present and former White House officials have testified before 
Congress at least 74 times since World War II
    Fourth, the claims of absolute immunity and the refusal to 
appear pursuant to subpoena and to answer questions directly 
contradicts the behavior of Mr. Rove and his attorneys 
themselves.
    When Mr. Rove's attorney was asked earlier this year by a 
media representative whether Mr. Rove would testify before 
Congress in response to a subpoena on the Siegelman matter, he 
responded, ``Sure,'' by e-mail.
    In addition, unlike Harriet Miers, Mr. Rove has spoken 
extensively in the media on the very subject the Subcommittee 
seeks to question him about; his role in the alleged 
politicization of the Justice Department, including the 
Siegelman case, and the unprecedented firing of nine U.S. 
attorneys in 2006.
    Fifth and finally, especially to the extent that executive 
privilege is the basis for the claims of immunity as to Mr. 
Rove, the White House has failed to demonstrate that the 
information we are seeking from him under the subpoena is 
covered by that privilege.
    The courts have made clear that executive privilege applies 
only to discussions involving the president and to 
communications from or to presidential advisers in the course 
of preparing advice for the president.
    But the White House has maintained that the president never 
received any advice or and was not himself involved in the U.S. 
attorney firings and related events.
    The presidential communications privilege simply does not 
come into play here at all.
    For all the foregoing reasons as stated more fully in the 
written ruling that has been distributed to Members of the 
Subcommittee, I hereby rule that Mr. Rove's claims of immunity 
are not legally valid, and his refusal to comply with the 
subpoena and appear at this hearing to answer questions cannot 
be properly justified.
    These reasons are without prejudice to one another and to 
any other defects that may, after further examination, be found 
to exist in the asserted claims.
    At this time, I would now recognize my colleague, Mr. 
Cannon, the Ranking Member of the Subcommittee, for any remarks 
that he may have.
    Mr. Cannon?
    Mr. Cannon. Thank you, Madam Chair.
    I was just wondering as you read your statement if you are 
aware that Mr. Rove is out of the county on a trip that was 
planned long before this hearing was set.
    Ms. Sanchez. We have been in constant communication with 
his attorney and himself, and he has refused to testify, not 
because it was inconvenient to his schedule, but because he is 
asserting that he is covered by an Executive immunity claim.
    Mr. Cannon. So I take it you are aware that he is on a 
long-planned trip, and this hearing was scheduled for our 
convenience, not his?
    Ms. Sanchez. He did not--his attorney never mentioned it to 
us in all the numerous correspondence and specifically relating 
to the date that we asked him to come and appear before the 
Subcommittee.
    Mr. Cannon. It was my understanding that he actually had 
communicated he had a trip planned and so could not be here 
today.
    Are you also aware----
    Ms. Sanchez. We were not aware and we were not made aware 
by his attorney or by Mr. Rove himself.
    Mr. Cannon. Are you aware that Mr. Rove has offered to sit 
down and talk about these things off the record--not off the 
record but in a private conversation and answer the questions 
that you have asked?
    Ms. Sanchez. He has tried to assert a position that he 
would come and discuss one matter only.
    And the Subcommittee has significant interest in more than 
just one matter.
    We believe that he should appear like any other witness to 
be sworn in and to have his comments made into the record and 
to be asked questions by the Subcommittee in a give-and-take 
that mere written questions would not suffice.
    Mr. Cannon. Thank you, Madam Chair.
    This hearing was called to hear from Karl Rove about 
allegations that he politically manipulated the prosecution of 
Don Siegelman, the firing of U.S. attorneys, and other matters.
    The allegation is that, with Mr. Rove's involvement, 
Democrats were prosecuted while Republicans were not, and that 
U.S. attorneys that did not cooperate were sacked.
    If such allegations were true, they would be very serious. 
But there is no evidence supporting these allegations at all. 
In fact, there is compelling reason to question the basis of 
these allegations.
    In the Siegelman case, the majority rests on the 
transparently ludicrous allegations of Jill Simpson. Even Don 
Siegelman has denied her allegations.
    Equally important, the career prosecutor who led the 
Siegelman prosecution--this is a career person, not a political 
appointee--Acting Attorney Louis Franklin, clearly stated long 
ago that the prosecution was not the result of political 
influence.
    To quote, ``I can state with absolute certainty that Karl 
Rove had no role whatsoever in bringing about the investigation 
or prosecution of Former Governor Don Siegelman.
    ``It is intellectually dishonest to even suggest that Mr. 
Rove influenced or had any input into the decision to 
investigate or prosecute Don Siegelman.
    ``That decision was made by me, Louis D. Franklin, Sr., as 
the acting U.S. attorney in the case, in conjunction with the 
Department of Justice's Public Integrity Section and the 
Alabama Attorney General's Office.
    ``Each office dedicated both human and financial resources. 
Our decision was based solely upon evidence in the case, 
evidence that unequivocally established that Former Governor 
Siegelman committed bribery, conspiracy, mail fraud, object 
instruction of justice, and other serious Federal crimes.''
    That puts the matter to rest. What about the U.S. attorney 
firings?
    Same answer. Kyle Sampson, the key witness told us exactly 
1 year ago today that either Mr. Rove nor anyone else in the 
White House ever, to his knowledge, sought the resignation of 
any of the dismissed U.S. attorneys in order to seek a partisan 
advantage in a given case or investigation or for any other 
reason unrelated to ordinary performance concerns.
    So this is all old news. And it is old news that nothing 
happened.
    What else is old news? As early as March 2007, the White 
House was willing to let us sit down with Karl Rove and 
interview him about allegations against him; that in the run-up 
to this hearing, Mr. Rove was still willing to sit down and 
talk to us in an interview about the Siegelman matter, with no 
prejudice to the Committee's ability to institute further 
proceedings if it found anything wrong.
    Then on July 23, in oral arguments in the Committee's case 
against Harriet Miers, the district court judge told the 
Committee pointedly that negotiations should be the preferred 
way to work these things out and, of course, that once again 
ignoring the court's admonition and common sense, Committee 
Democrats rejected Mr. Rove's offer of voluntary testimony and 
opted to hold a hearing today in front of an empty chair.
    If the majority was serious about getting to the bottom of 
this issue, it would have taken Mr. Rove and White House up on 
these offers.
    The fact is that it hasn't proof that their efforts opt to 
more than a partisan stunt.
    Rather than indulge in partisan antics, the majority should 
be attending to the truly important matters that are 
confronting Congress in the few legislative days we have left 
in this Congress.
    We should be holding hearings on the Milberg Weiss class 
action trial lawyer scandal. A convicted lawyer at the center 
of the scandal says illegal kick-backs to class-action 
plaintiffs are industry practice.
    We have no business considering the majority's bills next 
week to roll back arbitration and deliver consumers to the 
trial lawyers until we get to the bottom of this abuse of our 
justice system.
    But we won't. We should be holding hearings on legislation 
to bring down gas prices such as my bill to cut the red tape, 
keeping trillions of barrels of oil from mountain shale from 
getting to American consumers or my bill to equalize 
discriminatory taxes on natural gas consumers so that they can 
pay their bills this winter.
    But we won't.
    To quote Woody Allen in the movie, ``Bananas,'' this 
meeting today is ``a travesty of a mockery of a sham.''
    I hope we can act on the issues that are important to the 
American people before we adjourn.
    And I yield back the balance of my time.
    Ms. Sanchez. The gentleman yields back.
    This time, I would recognize Mr. Smith, the Ranking Member 
of the full Judiciary Committee for an opening statement if he 
so chooses.
    Mr. Smith. Thank you, Madam Chair.
    I do have a brief opening statement.
    Madam Chair, although we find ourselves in front of an 
empty chair, it is not a sign of an Administration refusing to 
cooperate with Congress.
    Nearly a year and a half ago, the Administration offered 
the Committee a voluntary interview with Karl Rove, a senior 
adviser to the president.
    The Democratic majority declined the offer.
    In most instances, the Administration has negotiated 
successfully with Congress to resolve information requests.
    Mr. Rove offered to conduct a voluntary interview regarding 
the Siegelman matter. The Democratic majority refused.
    Mr. Rove offered to answer written questions. Again, the 
Democratic majority refused.
    These offers were without prejudice to the Committee's 
ability to pursue further process if it wanted to.
    The offers should have been accepted. But time and again, 
the Democratic majority has passed up the opportunity to gather 
information.
    As to the issue before us, since the presidency of George 
Washington, presidents and Department of Justice officials from 
both parties have asserted that the president's closest 
advisers are immune from congressional testimony.
    For example, in a 1999 opinion for President Clinton, then 
Attorney General Janet Reno stated that, ``An immediate adviser 
the president is immune from compelled congressional 
testimony.''
    Karl Rove serves as assistant to the president, deputy 
chief of staff, and senior adviser to the president. He is the 
definition of an immediate adviser. An assertion of his 
immunity should be expected by anyone familiar with historical 
precedence.
    Once already, this Congress, the Democratic majority has 
tried to force the issue of compelled testimony by immediately 
advisers to the president. That effort led to contempt 
resolutions against Harriet Miers and Joshua Bolten.
    Litigation is pending in the district court and is unlikely 
to be concluded prior to the adjournment of this Congress.
    It is clear today's hearing is a likely prelude to another 
recommendation of contempt of the House and the debate of 
another contempt citation on the floor.
    Just 17 days ago, a district court judge heard oral 
arguments in the case of Committee v. Miers. The judge 
emphasized unmistakably that negotiation, not confrontation, is 
the preferred means of resolving situations like this. He 
stressed that both sides stand to lose if they do not work the 
matter out through negotiation. And he made clear that if the 
parties cannot resolve the dispute on their own, they may have 
to negotiate pursuant to the court's instructions.
    With these admonitions fresh in mind, Republicans hope the 
Democratic majority would finally accept Mr. Rove's offer 
without creating a partisan confrontation.
    But again, the Democratic majority has refused.
    According to a recent Rasmussen poll, Congress' approval 
ratings have reached a historic low; only 9 percent of 
Americans believe we are doing a good job.
    The American people have lost faith in the people's House. 
Today's hearing in no way addresses the most pressing issues 
before our nation.
    Thank you, Madam Chair, and I will yield back.
    Ms. Sanchez. The gentleman yields back.
    Without objection, other Members' opening statements will 
be included in the record.
    The Chair would now entertain a motion to uphold the 
Chair's ruling regarding Mr. Rove's failure to appear and to 
answer questions.
    Mr. Cannon. Parliamentary inquiry, Madam Chair.
    Ms. Sanchez. The gentleman will state his parliamentary 
inquiry.
    Mr. Cannon. I take it then, the opening statements of the 
Chair that embodied the ruling of the Chair. I am just 
wondering why--there has been no objection to the ruling, as 
far as I can understand.
    Do we need to have--is it proper to have a motion to 
support a ruling that has not been challenged?
    Ms. Sanchez. My understanding from the parliamentarian that 
it is proper to entertain a motion to uphold the Chair's ruling 
even though no objections to the ruling has been stated.
    Mr. Cannon. Yes, Madam Chair, thank you.
    I understand that it may be appropriate to do, but I don't 
understand why you would do it.
    Ms. Sanchez. Well, Mr. Cannon----
    Mr. Cannon. At least on our side, nobody has objected to 
your motion.
    Ms. Sanchez. I believe that the preferred method to make 
the record is to have a motion upholding the ruling of the 
Chair.
    And although it might not be the gentleman's preferred 
method of conducting Subcommittee business, that is what we 
will do here today.
    Mr. Cannon. Thank you, Madam Chair.
    Mr. Conyers. Madam Chair?
    Ms. Sanchez. Mr. Conyers?
    Mr. Conyers. I would move to sustain the Chair's ruling.
    Ms. Sanchez. The gentleman so moves. Does any Member seek 
recognition to speak on the motion?
    If not, then a quorum being present, the question is on the 
motion to sustain the Chair's ruling.
    All those in favor will signify by saying ``aye.''
    [A chorus of ayes.]
    Ms. Sanchez. All those opposed will signify by saying 
``no.''
    Mr. Cannon. No.
    Ms. Sanchez. In the opinion of the Chair, the ayes have it. 
The ayes have it, and the motion is sustained.
    Ms. Lofgren. Madam Chair, could we have a roll call vote?
    Ms. Sanchez. A roll call vote is requested. As your name is 
called, all those in favor will signify by saying ``aye'' and 
all those who oppose will say ``no'' and the Clerk will call 
the roll.
    The Clerk. Ms. Sanchez?
    Ms. Sanchez. Aye.
    The Clerk. Ms. Sanchez votes aye.
    Mr. Conyers?
    Mr. Conyers. Aye.
    The Clerk. Mr. Conyers votes aye.
    Mr. Johnson?
    Mr. Johnson. Aye.
    The Clerk. Mr. Johnson votes aye.
    Ms. Lofgren?
    Ms. Lofgren. Aye.
    The Clerk. Ms. Lofgren votes aye.
    Mr. Delahunt?
    Mr. Delahunt. Aye.
    The Clerk. Mr. Delahunt votes aye.
    Mr. Watt?
    [No response.]
    The Clerk. Mr. Cohen?
    Mr. Cohen. Aye.
    The Clerk. Mr. Cohen votes aye.
    Mr. Cannon?
    Mr. Cannon. No.
    The Clerk. Mr. Cannon votes no.
    Mr. Jordan?
    [No response.]
    The Clerk. Mr. Keller?
    [No response.]
    The Clerk. Mr. Feeney?
    [No response.]
    The Clerk. Mr. Franks?
    [No response.]
    Ms. Sanchez. Is there any other Member who wishes to cast 
or change their vote?
    If not, the Clerk will report.
    The Clerk. Madam Chair, there were six ayes, one no.
    Ms. Sanchez. A majority having voted in favor--pardon me?
    Mr. Watt, would you care to vote?
    Mr. Watt votes aye, and the Clerk will report.
    The Clerk. Madam Chair, there were seven ayes, one no.
    Ms. Sanchez. A majority having voted in favor, the motion 
is agreed to.
    The Subcommittee and full Committee will take under 
advisement what next steps are warranted.
    This concludes our hearing.
    I want to thank everybody for their time and patience.
    There being no more pending business today, the 
Subcommittee on Commercial and Administrative Law is adjourned.
    [Whereupon, at 10:31 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

   Ruling of the Chair, the Honorable Linda T. Sanchez, Chairwoman, 
           Subcommittee on Commercial and Administrative Law

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

        Letter to Scott Pelley from Karl Rove, submitted by the 
                         Honorable Chris Cannon

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

   Letter to the Honorable John Conyers, Jr. from Robert D. Luskin, 
                submitted by the Honorable Chris Cannon

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

   Letter to the Honorable John Conyers, Jr. from Robert D. Luskin, 
                submitted by the Honorable Chris Cannon

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

Letter to Robert D. Luskin from the Honorable John Conyers, Jr. and the 
 Honorable Linda T. Sanchez submitted by the Honorable Linda T. Sanchez

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

Letter to Robert D. Luskin from the Honorable John Conyers, Jr. and the 
 Honorable Linda T. Sanchez submitted by the Honorable Linda T. Sanchez

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

   Letter to the Honorable John Conyers, Jr. from Robert D. Luskin, 
              submitted by the Honorable Linda T. Sanchez

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

Letter to Robert D. Luskin from the Honorable John Conyers, Jr. and the 
 Honorable Linda T. Sanchez submitted by the Honorable Linda T. Sanchez

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

   Letter to the Honorable John Conyers, Jr. from Robert D. Luskin, 
              submitted by the Honorable Linda T. Sanchez

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

Letter to Robert D. Luskin from the Honorable John Conyers, Jr. and the 
 Honorable Linda T. Sanchez submitted by the Honorable Linda T. Sanchez

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

Letter to the Honorable Linda T. Sanchez and the Honorable Chris Cannon 
   from Bishop Joe Morris Doss, submitted by the Honorable Linda T. 
                                Sanchez

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
